SEPTEMBER 29, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




        A REVIEW OF NASA’S REPLACEMENT OF
      RADIATION MONITORING EQUIPMENT ON THE
           INTERNATIONAL SPACE STATION




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-027 (ASSIGNMENT NO. A-11-004-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ARI          Advanced Radiation Instrumentation
EV-CPDS      Extra-Vehicular Charged Particle Directional Spectrometer
EV-TEPC      Extra-Vehicular Tissue Equivalent Proportional Counter
EVA          Extra-Vehicular Activity
IRMA         Integrated Risk Management Application
ISS          International Space Station
IV-CPDS      Intra-Vehicular Charged Particle Directional Spectrometer
IV-TEPC      Intra-Vehicular Tissue Equivalent Proportional Counter
MORD         Medical Operations Requirements Document
MSL          Mars Science Laboratory
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
RAD          Radiation Assessment Detector
REID         Risk of Exposure-Induced Death
REM          Roentgen Equivalent Man
ROM          Rough Order of Magnitude
TEPC         Tissue Equivalent Proportional Counter


                                                                   REPORT NO. IG-11-027
SEPTEMBER 29, 2011




                                                                                               OVERVIEW

                     A REVIEW OF NASA’S REPLACEMENT OF
                   RADIATION MONITORING EQUIPMENT ON THE
                        INTERNATIONAL SPACE STATION

                                                                                                 The Issue

  Space radiation, including gamma rays, protons, and neutrons, poses a danger to NASA’s
  astronauts, increasing their risk of cataracts, cancer, damage to the central nervous
  system, and cardiovascular fatality. 1 Consequently, protecting astronauts from space
  radiation has been a fundamental requirement since space travel began. 2 To monitor
  astronauts’ exposure to radiation while aboard the International Space Station (ISS) and
  to guard against overexposure, NASA installed a suite of monitoring instruments on the
  ISS between October 2000 and April 2002. However, these instruments have exceeded
  their design life; experienced varying degrees of failure, including in one case complete
  failure; and do not meet all ISS medical operations and radiation monitoring
  requirements. As a result, in 2008 NASA created the Advanced Radiation
  Instrumentation (ARI) Project to develop a new suite of instruments and ensure that
  NASA has the real-time information needed to protect its astronaut crews. Given the
  importance of radiation monitoring aboard the ISS and NASA’s past challenges in the
  areas of acquisition and project management, the NASA Office of Inspector General
  (OIG) reviewed the ARI Project to assess its status and determine whether radiation
  monitoring and applicable project management requirements have been met. Details of
  the audit’s scope and methodology are in Appendix A.

                                                                                                     Results

  NASA has poorly managed the development of replacement radiation monitoring
  instruments. As a result, the replacement instruments are costing more than expected, are
  behind schedule, and will not include all planned elements. More effective project
  management would have enabled the Agency to better use its resources to assess and
  protect astronaut health, ensure that astronaut radiation exposure is as low as reasonably

  1
      Space radiation consists primarily of ionizing radiation in the form of high-energy, charged particles that
      can cause acute and long-term damage to living cells depending on the dose received. There are three
      naturally occurring and highly variable sources of this type of radiation: radiation trapped in the Earth’s
      magnetic field, galactic cosmic radiation originating from outside the solar system, and radiation caused
      by solar events.
  2
      Appendix B lists acceptable limits for astronaut radiation exposure, the health effects overexposure may
      cause, and a description of our review of astronaut exposure histories.



REPORT NO. IG-11-027
                                                                                                          OVERVIEW



     achievable, and collect data needed for planning long-range exploration missions during
     which astronauts’ risk from radiation exposure will significantly increase.

     In addition, until April 2010 NASA was developing an instrument that did not meet the
     radiation monitoring requirements identified in its ISS Medical Operations Requirements
     Document (MORD). The MORD specifies the monitoring and measuring requirements
     of charged particles outside the ISS, but NASA was developing an instrument that only
     would have measured radiation dosage.

     Although we did not identify any instances of crewmembers exceeding defined radiation
     exposure limits, the instruments that provide real-time monitoring of the Space Station’s
     radiation environment have reached the end of their design life and have partially or
     completely failed.

     In addition, while reviewing NASA’s management of the ARI Project and its
     development of new radiation monitoring instruments, we also found that the ISS
     Program has never monitored astronaut exposure to neutrons in accordance with MORD
     requirements. 3 Further, the Program had not adequately analyzed, planned, tracked, or
     controlled the risk created by this inability to monitor neutrons aboard the ISS. Research
     suggests that neutron radiation, which can deeply penetrate the body and damage blood-
     forming organs, may contribute as much as 10 to 30 percent of the total radiation dose
     received by astronauts inside spacecraft such as the ISS.

     The ARI Project Is Costing More Than Planned, Is Behind Schedule, and Will Not
     Include All Planned Elements. The ARI Project experienced significant cost growth
     and schedule delays. Total estimated ARI Project costs increased approximately
     62 percent, from $16 million to $26 million. Further, delivery of the new instruments has
     been delayed by almost 3 years. The cost growth and schedule delays occurred because
     the ISS Program approved the ARI Project based on cost estimates and schedule
     milestones that were not supported by accurate and complete data. For example, NASA
     did not have a firm proposal from the contractor responsible for building one of the
     replacement instruments when the ISS Program approved the ARI Project. When NASA
     received the proposal 7 months later, the cost of the instrument had nearly doubled from
     NASA’s baseline projection.

     Only after the ARI Project’s Preliminary Design Review did ISS Program management
     completely understand the scope of work required to deliver the replacement suite of ISS
     radiation monitoring instruments, when the instruments realistically could be delivered,
     and how much they would cost. Baselining the ARI Project after the Preliminary Design
     Review, as described in NASA’s project management policies, would have provided the
     Agency a better chance to deliver the Project within the planned cost, schedule, and
     scope.


     3
         Section 7.5.3.2.1.3 of the ISS MORD requires that “[r]adiation monitoring instruments . . . provide the
         capability to characterize the neutron contribution to crew exposures.”



ii                                                                                          REPORT NO. IG-11-027
OVERVIEW



  We also found that the ARI Project included an instrument that did not meet existing
  external radiation monitoring requirements. Specifically, NASA did not review and, as
  necessary, formally initiate steps to revise radiation monitoring requirements during the
  early phases of the Project to ensure that the requirements, if met, would address the true
  radiation monitoring needs of the ISS Program. Johnson Space Center’s Space Life
  Sciences Directorate should have established the current external radiation monitoring
  requirement and, if necessary, initiated steps to properly execute an official change to the
  MORD before beginning any development effort. 4

  As a result of these missteps, the ARI Project has been de-scoped, will not include all
  planned elements, and key radiation monitoring requirements for astronauts aboard the
  ISS continue to go unmet.

  ISS Risk Management for Neutron Monitoring Was Inadequate. To accurately track
  astronaut radiation exposure and assess risks to crew health, the ISS Program is required
  to monitor the neutron portion of the radiation environment aboard ISS. However, the
  Program has never met the neutron-monitoring requirement and is not expected to do so
  before December 2014 when the instrument being developed to monitor neutrons will be
  available. In the interim, the Program did not adequately explain in its risk management
  system the context of the risk posed to astronaut crews. Further, the Program did not
  develop or document a plan to address the risk. NASA requires that risks be managed
  until they are mitigated or resolved. The failure to fully report the risk posed by the
  inability to monitor neutron radiation aboard the ISS meant that the issue did not receive
  the focused management attention required for timely resolution.

  When we informed the Assistant Associate Administrator for ISS of this issue during the
  fieldwork for this audit, he acknowledged that the neutron risk had not been fully
  developed and directed the ISS Program to take immediate corrective action.
  Subsequently, the Program updated the ISS risk management system to more fully report
  the risk of not measuring astronaut exposure to neutrons while aboard the ISS. As a
  result, we are not making any formal recommendations related to this issue.

                                                                         Management Action

  To improve project management, we recommended that the ISS Program Manager ensure
  that all future ISS-related projects follow the tenets of NASA’s project management
  policy and do not proceed to the implementation stage until managers demonstrate
  projects are properly anchored by firm requirements, realistic cost and schedule
  estimates, sufficient funding, and successful completion of a Preliminary Design Review.

  We also recommended that Johnson Space Center’s Director, Space Life Sciences,
  determine whether the current ISS medical operations requirement for external radiation

  4
      The MORD must be updated in coordination with the Mission Integration and Operations Control Board,
      the Multilateral Medical Policy Board, and any affected international partners.



REPORT NO. IG-11-027                                                                                        iii
                                                                                              OVERVIEW



     monitoring of the spectra of charged particles is appropriate and, if not, formally initiate
     steps to update the MORD in coordination with the Mission Integration and Operations
     Control Board, the Multilateral Medical Policy Board, and international partners.

     In response to our draft report, the Assistant Associate Administrator for ISS concurred
     with our recommendations but took issue with some of our findings and conclusions.
     The full text of his comments are reprinted in Appendix C.

     In response to our first recommendation, the Assistant Associate Administrator agreed to
     follow NASA’s project management policy in the future. However, he stated that the ISS
     Program does not interpret NASA’s policy to require that a project only proceed to
     implementation after completion of a Preliminary Design Review. He also took issue
     with our finding that the ARI Project has been poorly managed. Despite these
     disagreements, the Assistant Associate Administrator stated that as part of the lessons
     learned process the ISS Program will review how the ARI Project’s cost and schedule
     estimates and assumptions concerning technology readiness levels were developed to
     determine what improvements can be made for future projects. The planned corrective
     action will be completed by December 15, 2011.

     We consider the ISS Program’s proposed actions to be responsive to the intent of our
     recommendation and will close the recommendation upon completion and verification of
     the proposed actions. We believe the planned review of the development of cost and
     schedule estimates and assessment of the technology readiness level for the ARI Project
     will help ensure future ISS-related projects are planned using more reliable estimates and
     more accurate information.

     However, we disagree with the ISS Program’s interpretation of NASA’s project
     management policy. Section 2.3 of the policy establishes the project life cycle; describes
     the activities that occur in the formulation and implementation phases; and states that,
     although projects are initiated in the formulation phase, approval marks the transition
     from project formulation to implementation. 5 The Section further states that project
     plans – which include technical, schedule, and cost objectives – are baselined after the
     Preliminary Design Review and before approval to proceed to full implementation. After
     all, the purpose of the Preliminary Design Review is to establish the basis for proceeding
     with detailed design work by demonstrating that a project’s preliminary design meets all
     requirements within an acceptable level of risk and existing cost and schedule constraints.
     Furthermore, Section 2.5 of the policy specifically lists the Preliminary Design Review as
     one of the internal reviews that leads to project approval and, therefore, implementation.

     Although the ARI Project was given “full and final approval” in July 2008, managers did
     not gain a true understanding of the scope of work, cost, and schedule required until after
     the Project’s Preliminary Design Review in April 2009. As a result, the Project’s total
     estimated costs increased approximately 62 percent, from $16 million to $26 million; the
     5
         NASA Procedural Requirements 7120.5D, “NASA Program and Project Management Processes and
         Requirements,” March 2, 2007.



iv                                                                               REPORT NO. IG-11-027
OVERVIEW



  Project will not include one of the three planned instruments to reduce uncertainties in
  crew exposure and corresponding health risk; and delivery of one of the two remaining
  instruments has been delayed by almost 3 years. We believe these facts demonstrate that
  the Project was poorly managed and do not understand NASA’s rationale for insisting
  otherwise.

  In response to our second recommendation, the Assistant Associate Administrator stated
  that the Director of the Space Life Sciences Directorate will determine whether the
  current ISS medical operations requirement for external radiation monitoring of the
  spectra of charged particles is appropriate. Further, by October 15, 2011, the Director
  will provide the ISS Program with a plan to review and update the MORD. We consider
  the Space Life Sciences Directorate’s proposed action to be responsive to our
  recommendation and will close the recommendation upon completion and verification of
  the proposed action.




REPORT NO. IG-11-027                                                                         v
SEPTEMBER 29, 2011




                                                          CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 7

  RESULTS
      The ARI Project Is Costing More Than Planned, Is Behind
        Schedule, and Will Not Include All Planned Elements _______ 8
      ISS Risk Management for Neutron Monitoring
         Was Inadequate __________________________________ 15

  APPENDIX A
      Scope and Methodology _______________________________ 17
      Review of Internal Controls ____________________________ 19
      Prior Coverage ______________________________________ 19

  APPENDIX B
      Radiation Exposure Limits and Health Effects ______________ 20

  APPENDIX C
      Management Comments ______________________________ 22

  APPENDIX D
      Report Distribution ___________________________________ 26




REPORT NO. IG-11-027
SEPTEMBER 29, 2011




                                                                                      INTRODUCTION


Background

  Exposure to space radiation, including gamma rays, protons, and neutrons, increases
  astronauts’ risk of cataracts, cancer, central nervous system damage, and cardiovascular
  fatality. 6 NASA recognized this hazard and began monitoring astronaut exposure to
  radiation as early as Project Mercury in 1961 and has continued such monitoring during
  the Space Shuttle and International Space Stations (ISS) programs. Future long-duration
  expeditions outside Earth’s protective magnetic field and into interplanetary space where
  space radiation is more intense will increase the risk of crew exposure. As NASA
  considers the feasibility of such future human space flight missions, radiation protection
  remains one of the key technological issues that must be resolved. Gathering accurate
  information on the effects of radiation aboard the ISS is an important step to
  understanding and resolving this issue.

  Passive and Active Radiation Monitoring. To protect astronauts living and working
  aboard the ISS from the adverse effects of radiation, the ISS Medical Operations
  Requirement Document (MORD) establishes radiation health and exposure monitoring
  requirements. 7 Specifically, the MORD requires the monitoring and measurement of
  (1) radiation doses absorbed by human tissue, (2) charged particles and neutron radiation
  inside the ISS, and (3) charged particles outside the ISS during extra-vehicular activities
  (EVAs). 8 With regard to radiation, the Agency follows the “ALARA” philosophy, which
  means keeping astronaut radiation exposure As Low As Reasonably Achievable.

  Because no single instrument is capable of measuring all energies, quantities, and types
  of radiation, NASA uses multiple passive and active monitoring devices to protect ISS
  crewmembers. Passive monitoring devices include personal dosimeters worn by each

  6
      Space radiation consists primarily of ionizing radiation in the form of high-energy, charged particles that
      can cause acute and long-term damage to living cells depending on the dose received. There are three
      naturally occurring and highly variable sources of this type of radiation: radiation trapped in the Earth’s
      magnetic field, galactic cosmic radiation originating from outside the solar system, and radiation caused
      by solar events.
  7
      Space Station Program 50260, “International Space Station Medical Operations Requirements Document
      (ISS MORD),” Revision C, February 2006. Approval authority for the MORD is delegated to the
      Mission Integration and Operations Control Board, while the Multilateral Medical Operations Panel has
      control of all technical content of the MORD. Any changes or revisions to the MORD must be jointly
      agreed to and signed by NASA and the affected ISS international partners.
  8
      Charged particles (protons and heavy ions) originating from solar flares and cosmic rays can cause acute
      and chronic health effects, depending on the dose received. The exterior of the ISS or fabric of a
      spacesuit can stop most charged particles; however, interactions of high-energy charged particles with
      spacecraft materials can produce neutron radiation (low-energy, uncharged particles). Neutron radiation,
      which also is generated by solar events, can deeply penetrate human tissue and damage blood-forming
      organs. Ten to thirty percent of the total radiation on the ISS is estimated to be neutron radiation.



REPORT NO. IG-11-027                                                                                                1
                                                                                 INTRODUCTION



    crewmember that measure the dosage but not the type of radiation exposure. However,
    such passive devices do not provide real-time data and must be returned to Earth for
    analysis. In addition, they do not record the date and time an astronaut was exposed to
    particular doses of radiation. Accordingly, NASA supplements the data obtained from
    passive instruments with active instruments that provide the real-time measurements
    needed to allow crewmembers to take action in response to changes in the radiation
    environment in and around the ISS. For example, data from active instruments could
    alert NASA to a sudden or unexpected increase in radiation and allow crewmembers to
    take necessary action. In fact, after a large solar flare was detected the evening of
    December 12, 2006, crewmembers slept overnight in heavily shielded areas of the
    spacecraft as a precautionary measure.

    A crewmember’s cumulative radiation exposure history impacts his or her eligibility for
    future space flights. Therefore, radiation monitoring devices not only help NASA
    manage crew health and assess crew risk, they also are used to help make crew selection
    and assignment decisions. As described in Appendix B, each year a NASA radiation
    specialist uses the data from radiation monitoring devices to generate the Astronaut’s
    Annual Radiation Exposure Report, which tracks each astronaut’s career exposures and,
    thus, their eligibility for future missions. Career exposure limits, as specified in the
    MORD, cannot be 3 percent more than the general public’s estimated risk of dying from
    cancer.

    First Generation Active Monitoring Instruments: TEPC, IV-CPDS, and EV-CPDS.
    To characterize and quantify the radiation environment inside and outside the ISS, NASA
    installed three active monitoring instruments between October 2000 and April 2002:

       1. The Tissue Equivalent Proportional Counter (TEPC) measures the real-time
          radiation dose human tissue receives inside the ISS. The TEPC became
          operational in October 2000 and continues to function, although it has a history of
          failures. The ISS has one operational TEPC and one spare unit on board. Both of
          these units have exceeded their design life by more than 3 years, and NASA has
          no other spares on the ground.

       2. The Intra-Vehicular Charged Particle Directional Spectrometer (IV-CPDS) was
          deployed to the ISS in March 2001 to measure charged particles inside the ISS.
          The IV-CPDS failed in 2006 and has not been repaired or replaced. There are no
          spares. Intra-vehicular charged particle data is required to support crew risk
          estimation and recordkeeping as well as crew selection and assignment processes.
          According to NASA officials, data obtained from the instrument when it was
          operational along with ongoing research have led to the adoption of risk
          estimation procedures that help compensate for the loss of the instrument.

       3. Flight controllers need information about radiation levels outside the ISS to
          evaluate the environment prior to and during spacewalks. To gather this
          information, NASA deployed the Extra-Vehicular Charged Particle Directional
          Spectrometer (EV-CPDS) to the ISS in April 2002. The instrument is essentially


2                                                                        REPORT NO. IG-11-027
INTRODUCTION



          three IV-CPDS units arranged at different angles on the outside of the ISS.
          However, only two of these units are operating – the third failed in May 2003 –
          and both have exceeded their design life by more than 5 years. In addition,
          NASA expects the units will fail before the ISS Program is scheduled to end in
          2020.

      Below are photographs of the first generation active radiation monitoring instruments
      (TEPC, IV-CPDS, and EV-CPDS).

      Figure 1. TEPC, IV-CPDS, and EV-CPDS Photographs




  Source: Space Radiation Analysis Group, Johnson Space Center.

  Replacement Suite of Active Monitoring Instruments: IV-TEPC, RAD, and
  EV-TEPC. In light of the repeated problems with the TEPC, the failure of the IV-CPDS


REPORT NO. IG-11-027                                                                          3
                                                                                          INTRODUCTION



    in 2006, and partial failure of the EV-CPDS in 2003, the ISS Program began developing
    a plan to replace the first generation hardware. In July 2008, the Program approved a
    replacement suite of active radiation monitoring instruments consisting of a new intra-
    vehicular TEPC (IV-TEPC); a Radiation Assessment Detector (RAD) to take the place of
    the IV-CPDS; and a second TEPC (EV-TEPC) to be deployed outside the ISS for
    monitoring radiation during EVAs. At the same time, the Advanced Radiation
    Instrumentation (ARI) Project was established at the Johnson Space Center (Johnson) to
    manage and develop the new instrument suite.

    Below are illustrations of the three new instruments (IV-TEPC, EV-TEPC, and RAD)
    approved in the replacement suite.

    Figure 2. IV-TEPC, EV-TEPC, and RAD Illustrations




              Source: Engineering Directorate’s Avionic Systems Division, Johnson Space Center.



4                                                                                REPORT NO. IG-11-027
INTRODUCTION



   As shown in Figure 3 below, there are two fundamental differences between the proposed
   replacement instrument suite and the original hardware. First, the IV-CPDS will be
   replaced with a RAD that will measure charged particles inside the ISS. In addition,
   unlike the IV-CPDS, the RAD will also measure neutrons. At the time of proposal, a
   RAD had just passed Critical Design Review on the Mars Science Laboratory (MSL)
   payload complement, and the ISS Program hoped to develop an ISS RAD based on a
   modified design of the MSL model. 9 Southwest Research Institute designed both the
   MSL RAD and the ISS RAD.

   Second, the instrument proposed to replace the EV-CPDS and measure radiation outside
   the Space Station would no longer monitor charged particles but instead would measure
   the radiation dose absorbed by human tissue. Specifically, Johnson’s Space Life
   Sciences Directorate and ISS Program management told us that their experience with the
   EV-CPDS gave them a good understanding of the charged particle environment outside
   the ISS. Based on 10 years of using the EV-CPDS, they determined that the real need on
   the ISS was an EV-TEPC, which would measure the radiation dose absorbed by human
   tissue during EVAs. However, as discussed below, the current MORD requires
   measurement of charged particles.

   Figure 3. Relationship between First and Second Generation ISS Active Radiation
   Monitoring Instruments and Corresponding Medical Operations Requirements

                                  First Generation              Second Generation
                                   Instruments                    Instruments
Measures radiation dose                                                              Will measure radiation dose
absorbed by human tissue              TEPC                            IV-TEPC        absorbed by human tissue
inside the ISS                                                                       inside the ISS

Measured charged particles                                                           Will measure charged
inside the ISS (failed in 2006)
                                    IV-CPDS                             RAD          particles and neutron
                                                                                     radiation inside the ISS
Measures charged particles                                                           Will measure radiation dose
outside the ISS                    EV-CPDS                           EV-TEPC         absorbed by human tissue
                                                                                     outside the ISS


   NASA Project Management Requirements. Agency-wide policies establish the
   requirements by which NASA should formulate and implement space flight programs
   and projects like the ARI Project. 10 Specifically, NPR 7120.5D and NM 7120-81 provide

   9
       The Critical Design Review is a major milestone in program development, which demonstrates that a
       program’s design is mature enough to proceed with full-scale fabrication, assembly, integration, and
       testing. Additionally, the Critical Design Review ensures that the technical effort will complete flight and
       ground system development and mission operations and meet overall performance requirements within
       the identified cost and schedule constraints.
   10
         NASA Procedural Requirements (NPR) 7120.5D, “NASA Program and Project Management Processes
        and Requirements,” March 2, 2007, and NM 7120-81, “NASA Space Flight Program and Project
        Management Requirements,” NASA Interim Directive for 7120.5D.



REPORT NO. IG-11-027                                                                                                  5
                                                                                                      INTRODUCTION



    that project planning should be based on realistic cost estimates. In addition, as shown in
    Figure 4, during a project’s pre-formulation and formulation phases, project managers are
    to develop and define requirements and the basis for cost and schedule estimates to meet
    those requirements. Moreover, before the project is approved for implementation, a
    Preliminary Design Review is required to ensure that all requirements can be met with
    acceptable risk and within cost and schedule constraints. At completion of the
    Preliminary Design Review, NASA’s project management principles require a baseline
    Project Plan to guide the project through the implementation phase. Baseline schedule
    estimates should be achievable in light of projected costs and available resources and
    based on realistic supplier cost and schedule proposals. 11

    Figure 4. Space Flight Project Management Process Overview
                                                       Project Life Cycle
           Project Pre-                        Project Formulation                  Approval       Project Implementation
           Formulation


    Program establishes         Project develops            Project develops               Project implements in accordance
    team to conduct             and refines concept,        baseline design to             with Project Plan and Project
    broad range of              management and              meet requirements              Life Cycle. Update project approach,
    concept studies that        technical                   with acceptable risk           Project Plan, and budget when
    meet requirements,          approaches,                 within cost and                major budget or content issues
    define management           requirements, etc.          schedule constraints;          require such changes.
    and technical               Project conducts            completes technology
    approaches, and             Systems Design              development;
    select acceptable           Review and                  conducts Preliminary                       Project conducts
    alternatives.               develops                    Design Review; and                         decommissioning
                                preliminary Project         completes baseline                         review. Decision
                                Plan.                       Project Plan.                              Authority approves
                                                                                                       decommissioning.

    Decision Authority        Decision Authority            Decision Authority
    conducts key decision     conducts key decision         conducts key decision
    points and approves       points and approves           points and approves
                                                                                                       Project archives data.
    project to proceed.       project to proceed.           project to proceed.




    Source: Adapted from NM 7120-81, “NASA Space Flight Program and Project Management
    Requirements,” NASA Interim Directive for NPR 7120.5D.




    11
         Baselines are an agreed-upon set of requirements, cost, schedule, designs, and documents. Changes to
         baseline information are made through a formal approval and monitoring process.



6                                                                                              REPORT NO. IG-11-027
INTRODUCTION



Objectives

  Our objective was to determine whether the ARI Project was meeting cost, schedule, and
  performance requirements. In addition, we examined whether NASA managers followed
  applicable project management requirements when developing radiation monitoring
  instruments and managing the Project. See Appendix A for details of the audit’s scope
  and methodology, our review of internal controls, and a list of prior coverage.




REPORT NO. IG-11-027                                                                       7
                                                                                                                   RESULTS




                                      THE ARI PROJECT IS COSTING MORE THAN
                                      PLANNED, IS BEHIND SCHEDULE, AND WILL
                                          NOT INCLUDE ALL PLANNED ELEMENTS
                The ARI Project has experienced significant cost growth and schedule delays.
                Total estimated ARI Project costs increased approximately 62 percent from a
                baseline figure of $16 million in 2008 to $26 million in 2009, and delivery of one
                of the instruments has been delayed for almost 3 years. These conditions
                occurred, in part, because the ISS Program approved the ARI Project based on
                cost estimates and schedule milestones that were not supported by accurate and
                complete data. In addition, we found that the Program made a determination that
                the existing MORD requirements did not reflect the most current knowledge and
                needs concerning external radiation monitoring. Based on this assessment and
                without seeking to amend the MORD, the Program planned an instrument that
                would not have satisfied existing MORD requirements. As a result of NASA’s
                poor management, the Project has been de-scoped and will not include all planned
                elements; the ISS Program has not been able to timely address known concerns
                about failed or failing radiation monitoring equipment; and key radiation
                monitoring requirements continue to go unmet.


ARI Project Experienced Significant Cost Growth and Schedule
  Delays

    The ISS Program baselined the ARI Project in July 2008, approving $16 million to
    deliver three instruments: an IV-TEPC, RAD, and EV-TEPC (two flight units and one
    qualification unit for each instrument). 12 Approximately 7 months later, the Project
    obtained a firm proposal from Southwest Research Institute, the company that was
    building the MSL RAD, to build the RAD for the ISS. The contractor’s proposal of
    $13.7 million nearly doubled the RAD’s baseline cost. The cost for the TEPCs also
    increased from the baseline figures due to higher-than-expected manufacturing costs and
    problems Johnson’s Avionic Systems Division encountered when developing the
    instruments’ detectors. 13 As a result, total estimated ARI Project costs increased
    approximately 62 percent, from $16 million to $26 million; development of the IV-TEPC
    slipped 11 months; development of the RAD slipped almost 3 years; the planned
    deliverables for the RAD have been reduced from two flight units and a qualification unit
    to one flight unit with spare parts; and the EV-TEPC has been canceled outright. The


    12
         A qualification unit, identical to a flight unit in form, fit, and function, is used to verify and certify the
         instrument’s environmental and performance requirements.
    13
         As depicted in Figure 2 (page 4), the IV-TEPC and EV-TEPC each consist of two detectors to measure
         radiation doses.



8                                                                                                REPORT NO. IG-11-027
RESULTS



      increases in Project cost and schedule estimates for development of the new radiation
      monitoring instruments are shown in Table 1.

Table 1. ARI Project Cost and Schedule Increases
                         2008                   2009                   2010                 2011
                Cost      Completion   Cost      Completion   Cost      Completion   Cost      Comple-
              (millions)      Date   (millions)      Date   (millions)      Date   (millions) tion Date
 IV-                       September                     March                                                  August
TEPC             $6.3        2010           $9.0         2011           $10.0      July 2011        $14.0       2011a
                                                       Contract
                                                      Award plus                                                March
    RAD          $7.3      May 2011         $13.7     30 Monthsb       $12.4c     March 2014        $12.4       2014d
 EV-                       September                     March
TEPC             $2.1        2010           $3.0         2011                             Cancelede

Total          $15.7                        $25.7                       $22.4                      $26.4
a
    The IV-TEPC was completed (built) and certified in August 2011. In December 2011, NASA will ship the unit
    to the European Space Agency’s French Guiana launch site for delivery to the ISS in March 2012 aboard a
    European Automated Transfer Vehicle.
b
    Per Southwest Research Institute’s February 2009 proposal for the RAD.
c
    Quantity decreased from two flight units and one qualification unit to one flight unit and spare parts. As a result,
    the estimated cost from the previous year decreased by $1.3 million.
d
    The RAD is scheduled to be completed (built and certified) by March 2014 and is planned to be delivered to the
    ISS by December 2014. Because delivery of the RAD will not occur for 3 years, NASA has not yet added the
    instrument to a launch vehicle manifest.
e
    In April 2010, the ISS Program Office removed the EV-TEPC from the ARI Project.




ARI Project Cost Estimates and Schedule Milestones Not
  Supported by Reliable Data

      Although NASA’s project management principles provide that managers base project
      planning on realistic cost and schedule estimates, the ISS Program approved and
      baselined the ARI Project in July 2008 using only on a Rough Order of Magnitude
      (ROM) estimate. Specifically, from February to May 2008 Johnson’s Avionic Systems
      Division determined the Project’s feasibility and developed a ROM estimate for an
      engineering change request to replace the ISS radiation monitoring hardware. 14

      14
           NPR 7123.1A, “NASA Systems Engineering Processes and Requirements” ensures configuration control
           of NASA systems, such as those aboard the ISS, by requiring that requested engineering changes are
           evaluated prior to being implemented. Typically, a formal board is established to receive, review, and
           approve engineering change requests, such as the request that was made to replace the ISS radiation
           monitoring equipment.



REPORT NO. IG-11-027                                                                                                       9
                                                                                                           RESULTS



     However, the estimate was not based on reliable cost and schedule data. For example,
     the ROM assumed a Project start date of February 2008; however, the change request
     was not signed until June 2008. Accordingly, the Project was behind schedule from the
     start. Further, at change request submittal, the Avionic Systems Division was unsure
     whether Texas A&M University, with which the Division had partnered to design and
     develop the IV- and EV-TEPC detectors, could produce the hardware. As work on the
     detectors progressed, the Division discovered that the University’s quality control and
     production capabilities were insufficient to produce flight hardware. After evaluating
     several vendors, the Division determined the best course of action was to do the work
     in-house. Finally, NASA’s ROM estimate for the TEPCs did not account for:

            •   the spare detectors the Agency decided were needed due to having limited access
                to the ISS after retirement of the Space Shuttle;

            •   higher-than-expected subcontractor and manufacturing costs; or

            •   cost reserves.

     In an internal document, the Project Manager acknowledged the shortcomings of the
     ROM: “The [TEPC] design prototyping effort has taken longer than initially planned,
     and the learning curve has been steeper than expected . . . . There were some big
     assumptions and unknowns that went along with our original ROM.” 15

     The estimate for the RAD was equally unreliable. NASA formulated the estimate prior
     to receiving a firm proposal from Southwest Research Institute, and the verbal ROM the
     Agency received from the Institute was based on an assumption that developing the ISS
     RAD hardware would be similar to developing the RAD for the MSL. However, the
     Institute did not fully understand the changes necessary to convert its MSL RAD design
     and develop hardware for use on the ISS. Consequently, NASA’s ROM for the RAD
     incorrectly estimated the instrument could be delivered for about $7.3 million in May
     2011. As noted above, the Institute’s formal proposal was almost double the amount of
     NASA’s original cost projections and the instrument will not be completed until March
     2014.

     In addition, we found that the Program did not gain a true understanding of the scope of
     work required to deliver the replacement suite of instruments, when the instruments could
     be delivered, and how much they would cost until after the Preliminary Design Review in
     April 2009. However, contrary to NASA guidance, the Project was baselined before the
     Preliminary Design Review. Documentation shows that the Project asked for “partial
     implementation to PDR [Preliminary Design Review]” and to be allowed to come back at
     Preliminary Design Review with “firm cost and schedule to completion.” Although the
     ISS Vehicle Control Board approved this approach, the Project was given “full and final
     approval” in July 2008 and the initial ROM “stuck.” In retrospect – and in keeping with

     15
          “ISS Advanced Radiation Instrumentation Project State of the Project” presentation, dated July 13, 2009.



10                                                                                         REPORT NO. IG-11-027
RESULTS



  NASA’s project management guidance – baselining the Project after the Preliminary
  Design Review would have provided NASA with a better opportunity to deliver the
  Project within the planned cost, schedule, and scope.

  According to a Program official, the ISS Program Manager authorized the initial Project
  baseline using the ROM estimate because it was the best cost estimate available at the
  time. However, a ROM estimate is generally considered reliable only when the cost of
  the desired item is well known and based on previous experience with the vendor and
  product. Although Program officials believed they sufficiently understood the level of
  effort required to develop new ISS radiation monitoring instruments and modify
  Southwest Research Institute’s design for the MSL RAD to make it suitable for the ISS,
  the informal ROM estimate ultimately proved inaccurate.

  When the Program received an updated estimate for the TEPCs and a firm cost proposal
  for the work required to deliver the RAD, NASA was not able to obtain the replacement
  suite of instruments for the $15.7 million allocated in the baseline projection and
  therefore had to de-scope the ARI Project. Program managers de-scoped the Project by
  ending development of the EV-TEPC after spending an estimated $2.3 million. In
  addition, as mentioned previously, the de-scoping included reducing the RAD
  deliverables from an initially planned two flight units and a qualification unit to one flight
  unit and spare parts.


The EV-TEPC Would Not Have Satisfied Current Program
  Requirements

  The ISS Program approved development of an EV-TEPC as a replacement for the
  EV-CPDS, an instrument currently operational but not expected to perform through the
  end of the ISS’s life. As discussed previously, Johnson’s Avionic Systems Division was
  designing the EV-TEPC to measure the amount of radiation that would be absorbed by
  human tissue. However, the current MORD requires measurement of the spectra of
  charged particles outside the ISS. As a result, the EV-TEPC would not have met the
  Program’s current requirements as expressed in the MORD.

  According to Johnson’s Space Life Sciences Directorate, ISS Program officials
  determined that the lessons learned through continuous operation of the Space Station
  and data obtained from 10 years of operating the EV-CPDS resulted in the decision to
  replace the EV-CPDS with an EV-TEPC. Specifically, Program officials said they
  determined that, despite the MORD requirements, it is no longer necessary to
  characterize charged particles outside the ISS. Instead, according to an ISS Program
  official, the Program determined that the ISS needs an instrument to monitor the
  spacecraft’s EVA environment and a TEPC placed outside the vehicle (an EV-TEPC)
  would provide measurements of the real-time dose of radiation an astronaut conducting
  an EVA would receive.




REPORT NO. IG-11-027                                                                               11
                                                                                          RESULTS



     As shown in Figure 4 (page 6), a fundamental first step in NASA’s accepted project
     management principles is to develop and define requirements. Therefore, the Space Life
     Sciences Directorate should have established what type of external radiation monitoring
     was required and, if necessary, properly initiated an official change to the MORD before
     beginning development of any instrument. Because responsibility for the safety of
     astronauts aboard the ISS is shared among the United States and its international partners,
     and because the MORD is the primary compendium of all health-related requirements for
     the ISS, NASA should have initiated a revision to the MORD through the established
     amendment process before changing the type of radiation monitoring instruments on the
     ISS.


The ARI Project Has Been De-Scoped and Will Not Include All
  Planned Elements

     As a result of NASA’s poor management of the ARI Project, the Project has been
     de-scoped and will not include all elements originally planned. In addition, the ISS
     Program has not timely addressed known concerns about failed or failing radiation
     monitoring equipment and key radiation monitoring requirements continue to go unmet.
     Specifically, due to the significant cost growth and schedule delays caused by reliance on
     unsupported initial cost and schedule estimates, the ISS Program directed Johnson’s
     Avionic Systems Division to stop work on the EV-TEPC and RAD instruments in April
     2010. Thereafter, the EV-TEPC, for which NASA had already spent about $2.3 million,
     was permanently removed from the Project. While development of the RAD resumed
     2 months later, delivery of the instrument, originally planned for May 2011, will be
     delayed until March 2014, almost 3 years behind schedule. This delay inhibits the ISS
     Program’s ability to restore the capability to measure astronaut exposure to charged
     particles inside the ISS – a requirement that has gone unmet since the IV-CPDS failed in
     2006 – and establish the capability to measure astronaut exposure to neutrons while
     aboard the ISS – a requirement that NASA has never met. Additionally, although
     NASA’s original plans for this important RAD instrument included two flight units and a
     qualification unit, the revised Project plan will result in only one flight unit and spare
     parts.

     During the course of our review, we did not identify any instances of crewmembers
     exceeding defined radiation exposure limits. However, improved project management
     would have enabled NASA to more effectively target its resources to protect astronaut
     health, ensure that astronaut radiation exposure is kept as low as reasonably achievable,
     and collect data needed for planning future long-duration exploration missions in which
     astronauts’ risks from radiation exposure will significantly increase.




12                                                                          REPORT NO. IG-11-027
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Given the importance of radiation monitoring aboard the ISS and NASA’s challenges in the
areas of acquisition and project management, we recommended that the Agency take the
following actions to ensure ISS projects follow the tenets of NASA’s project management
policy and that MORD requirements are kept current.

Recommendation 1. We recommend that the ISS Program Manager ensure that future ISS-
related projects follow the tenets of NPR 7120.5D and do not proceed to the implementation
stage until project managers demonstrate projects are properly anchored by firm
requirements, realistic cost and schedule estimates, sufficient funding, and successful
completion of a Preliminary Design Review.

  Management’s Response. The Assistant Associate Administrator for ISS concurred,
  stating that the ISS Program and JSC will follow NPR 7120.5 for future projects.
  Additionally, the ISS Program will initiate a lessons learned review of the ROM cost and
  schedule estimates and an assessment of the technology readiness level for the ARI
  Project to determine what improvements can be made for the benefit of future ISS and
  Johnson projects. A lessons learned review for the IV-TEPC will be completed by
  December 15, 2011.

  Although the Assistant Associate Administrator agreed with our recommendation and
  proposed corrective action, he indicated that “the ISS Program does not interpret
  NPR 7120.5D to mean that a project must be initiated only to Preliminary Design Review
  and then a subsequent authorization processed for implementation.” In addition, the
  Assistant Associate Administrator disagreed with our conclusion that the ARI Project
  was poorly managed. His full comments are reprinted in Appendix C.

  Evaluation of Management’s Response. We consider management’s proposed actions
  to be responsive to the intent of our recommendation and will close the recommendation
  upon completion and verification of those actions. However, we reiterate our finding that
  the ISS Program did not comply with the requirements of NPR 7120.5D and our
  conclusion based on that finding that the Project was poorly managed.

  Specifically, Section 2.3 of the policy establishes the project life cycle; describes the
  activities that occur in the formulation and implementation phases; and states that,
  although projects are initiated in the formulation phase, approval marks the transition
  from project formulation to implementation. 16 The Section further states that project
  plans – which include technical, schedule, and cost objectives – are baselined after the
  Preliminary Design Review and before approval to proceed to full implementation. After
  all, the purpose of the Preliminary Design Review is to establish the basis for proceeding

  16
       NASA Procedural Requirements 7120.5D, “NASA Program and Project Management Processes and
       Requirements,” March 2, 2007.



REPORT NO. IG-11-027                                                                              13
                                                                                          RESULTS



     with detailed design work by demonstrating that a project’s preliminary design meets all
     requirements within an acceptable level of risk and existing cost and schedule constraints.
     Furthermore, Section 2.5 of the policy specifically lists the Preliminary Design Review as
     one of the internal reviews that leads to project approval and, therefore, implementation.

     Contrary to these requirements, the ARI Project was baselined and given “full and final
     approval” 9 months before Preliminary Design Review using unreliable ROM cost and
     schedule estimates. As a result, the Project’s total estimated costs increased
     approximately 62 percent, from $16 million to $26 million; the Project will not include
     one of the three planned instruments intended to reduce uncertainties in crew exposure
     and corresponding health risk; and delivery of one of the two remaining instruments has
     been delayed by almost 3 years. We continue to believe that the assumptions and
     underestimations made by Project managers and now acknowledged by the Assistant
     Associate Administrator, along with the premature approval of the ARI Project based on
     inaccurate and incomplete data, constituted poor project management. Moreover, in light
     of these facts, we do not understand NASA’s rationale for insisting otherwise.

Recommendation 2. We recommend that Johnson’s Director of the Space Life Sciences
Directorate determine whether the current ISS medical operations requirement for external
radiation monitoring of the spectra of charged particles is appropriate and, if not, formally
initiate steps to update the MORD in coordination with the Mission Integration and
Operations Control Board, the Multilateral Medical Policy Board, and any affected
international partners.

     Management’s Response. The Assistant Associate Administrator concurred, stating that
     the Director of the Space Life Sciences Directorate will provide the ISS Program with a
     plan to review and update the MORD by October 15, 2011. He noted that the Space Life
     Sciences Directorate’s understanding of the ISS radiation environment has improved over
     the years of ISS operations and that this has reduced the complexity of requirements and
     design solutions needed to safely manage overall crew risk. He also noted that the delay
     in updating the MORD “has not impacted the implementation of the necessary
     requirements on the ARI Project.”

     Evaluation of Management’s Response. The Assistant Associate Administrator’s
     comments are responsive to our recommendation. Accordingly, we will close the
     recommendation upon completion and verification of the proposed corrective action.
     Although we understand that NASA’s understanding of radiation monitoring
     requirements has evolved over the years of ISS operations, we believe it is imperative
     that NASA and its international partners update the MORD to reflect this understanding.
     The MORD is the primary compendium of all health-related requirements for the ISS.
     Therefore, the MORD should have driven the formulation of the ARI Project. If the
     Project believed that the MORD no longer reflected the most current knowledge, it
     should have initiated a revision to the document through the established amendment
     process.




14                                                                          REPORT NO. IG-11-027
RESULTS




                                           ISS RISK MANAGEMENT FOR NEUTRON
                                                MONITORING WAS INADEQUATE

  To accurately track astronaut exposure and assess risks to crew health, the MORD
  requires the ISS Program to monitor astronaut exposure to neutron radiation. 17
  Monitoring such exposure is important because neutrons can affect blood-forming
  marrow in bones and may represent 10 to 30 percent of the total radiation dose an
  astronaut aboard the ISS receives. However, the ISS Program has never met this
  requirement and will not be able to do so until at least December 2014, when the RAD is
  scheduled to be delivered to the ISS. In the interim, the ISS Program had not adequately
  analyzed, planned, tracked, or controlled the risk posed by the Program’s inability to
  measure neutrons.

  The ISS Program uses the ISS Integrated Risk Management Application (IRMA) to
  manage risks related to the Program. Although we identified an entry in the database
  related, in part, to the lack of a neutron monitoring instrument on board the ISS, we found
  that the Program had not clearly and comprehensively explained the context of the risk
  posed to crews by this lack of monitoring. 18 Further, the Program had not developed or
  documented in IRMA a plan to address the risk. 19

  NASA requires that all project risks be managed until they are mitigated or resolved. 20
  Risk management is an organized, systematic decision-making process that identifies,
  reduces, or controls risks to achieve program and project goals. Failure to fully report the
  risk posed by NASA’s inability to measure crew exposure to neutrons while aboard the
  ISS meant that the issue did not receive the focused management attention required for
  timely resolution.

  When we informed the Assistant Associate Administrator for ISS about this issue during
  fieldwork for this audit, he acknowledged that the Program had not fully developed the
  risk of its inability to monitor astronaut exposure to neutron radiation and directed the
  ISS Program to take immediate corrective action. Subsequently, the Program updated
  IRMA to reflect: (1) that the ISS is not equipped with an instrument designed to monitor
  neutrons; (2) that data provided by the TEPC instrument provides some insight into
  neutron radiation exposure, but not neutron-specific information; (3) that the Program
  accepts the risk of not having a neutron-specific monitoring device because the RAD will

  17
       Section 7.5.3.2.1.3 of the ISS MORD requires that “[r]adiation monitoring instruments . . . provide the
       capability to characterize the neutron contribution to crew exposures.”
  18
       IRMA Watch Item 5686 “Tissue Equivalent Proportional Counter (TEPC) and Neutron Monitoring
       Devices Needed.”
  19
       The entry related to the neutron exposure issue reported an expected closure date of December 31,
       2011 – clearly inaccurate in light of the expected December 2014 delivery date of the RAD to the ISS.
  20
       NPR 8000.4A, “Agency Risk Management Procedural Requirements,” December 16, 2008.



REPORT NO. IG-11-027                                                                                             15
                                                                                         RESULTS



     provide this capability; and (4) that the expected closure date for the neutron risk is
     December 31, 2014 – after the RAD is expected to have been successfully installed on
     board the ISS.

     As a result of these corrective actions, we are not making any formal recommendations
     related to this issue.


Management’s Comments on the Finding and Evaluation of
 Management’s Comments

     Management’s Comments on the Finding. Although we did not make any
     recommendations based on this finding, the Assistant Associate Administrator noted in
     his response that NASA is currently controlling the radiation exposure risk to
     crewmembers to 95 percent confidence levels and that the current lack of neutron-
     specific monitoring does not prevent NASA from controlling the risk of the neutron
     component of radiation exposure. (See Appendix C for additional details.)

     Evaluation of Management’s Comments. As acknowledged in the Assistant Associate
     Administrator’s response, the ISS Program currently lacks the capability to monitor the
     neutron portion of ionizing radiation as required by the MORD. Research suggests that
     neutron radiation, which can deeply penetrate the body and damage blood-forming
     organs, may contribute as much as 10 to 30 percent of the total radiation dose received by
     astronauts inside the ISS and other spacecraft. We believe installation of the ISS RAD in
     2014 will enhance NASA’s ability to track radiation exposure and risks to astronaut
     crews. In the interim, we support the actions NASA took during the course of our audit
     to more fully report the risk posed by NASA’s current inability to measure crew exposure
     to neutrons.




16                                                                         REPORT NO. IG-11-027
APPENDIXES




                                                                        APPENDIX A


Scope and Methodology

  We performed this audit from December 2010 through August 2011 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objective. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objective.

  Initially, we focused our review on processes used by the ARI Project to manage the
  development and implementation of Space Life Sciences radiation monitoring equipment
  needs. We interviewed key NASA Headquarters and Johnson Space Center personnel
  involved in the radiation monitoring program. We interviewed the Manager, ISS Vehicle
  Integration Office, to obtain background information on the ARI Project. We held
  multiple meetings with the ARI Project Manager to evaluate whether technical, cost, and
  schedule requirements were being met and to discuss the hardware content, cost, and
  schedule estimates.

  Additionally, we compared the ARI Project’s initial cost and schedule estimates with the
  current cost and schedule estimates. We also compared the Project’s planned hardware
  content with the hardware content being built in 2011.

  We identified and reviewed relevant Federal laws and regulations; NASA policies,
  procedures, plans, and guidance; and other criteria. We reviewed NASA and Johnson
  policies and procedures that prescribe the project management processes that should be
  followed to effectively meet a project’s approved technical, cost, and schedule goals.
  Specifically, we reviewed:

      •   Johnson Space Center Engineering Directorate Work Instruction (EA-WI-023),
          “Project Management of Government Furnished Equipment (GFE) Flight
          Projects,” Revision E, February 2006;

      •   NPR 7120.5D, “NASA Program and Project Management Processes and
          Requirements,” March 2, 2007;

      •   NM 7120-81, “NASA Space Flight Program and Project Management
          Requirements,” NASA Interim Directive for 7120.5D; and

      •   NPR 8000.4A, “Agency Risk Management Procedural Requirements,”
          December 16, 2008.



REPORT NO. IG-11-027                                                                         17
                                                                                       APPENDIX A



     We identified the ARI Project’s baseline cost, schedule, and technical requirements and
     assessed the extent that Johnson’s Avionic Systems Division and Space Life Sciences
     Directorate planned and took actions that would result in effectively developing and
     delivering a suite of replacement radiation monitoring instruments to the ISS.

     We interviewed experts from Johnson’s Space Radiation Analysis Group to identify and
     understand radiation monitoring requirements for the ISS, the extent these requirements
     are currently met, and how the proposed replacement suite of radiation monitoring
     instruments will meet the requirements. Also, we interviewed the Computer Resources
     Manager, Avionic Systems Division, to obtain an overview of the Avionics and Software
     Office responsibilities for the IV-TEPC development.

     In addition to interviews, we obtained and reviewed documents to include:

        •   life-cycle documents;

        •   technical requirements, cost, and schedule data; Feasibility Assessment made by
            the Avionic Systems Division for the ARI Project, dated May 6, 2008, to obtain
            original hardware content, cost, and schedule estimates;

        •   Independent Government Cost Estimate made by Assessments, Cost Estimates
            and Schedules Office for ISS ARI Project dated May 12, 2008, to obtain
            independent cost and schedule estimates;

        •   ISS Change Directive 011073, dated July 3, 2008, and Revision 1, dated April 19,
            2010, to obtain formal cost and schedule estimate and deliverables;

        •   internal task agreements between the ISS Vehicle Office and the Avionic Systems
            Division for fiscal years 2008, 2009, 2010, and 2011 to obtain formal cost and
            schedule estimate and deliverables; and

        •   financial data for work breakdown structure 401769.06.05.02.02.27 for
            ARI/IV-TEPC development from NASA’s “Core Financial” system to compare
            with the Project Manager’s current cost estimates.

     From our interviews and analysis, we identified:

        •   the ISS radiation monitoring requirements contained in SSP 50260, “International
            Space Station Medical Operations Requirements Document (ISS MORD),”
            Revision C, February 2006;

        •   the extent that current instruments on board the ISS are satisfying the radiation
            monitoring requirements;

        •   whether NASA will have the replacement suite on board the ISS to prevent any
            gaps in continuously measuring and monitoring crew exposure to radiation;


18                                                                          REPORT NO. IG-11-027
APPENDIX A



      •   the capabilities of the TEPC currently on board the ISS, including its estimated
          useful life and whether the ISS Program has a backup plan should the TEPC fail;
          and

      •   the impact for a delayed development and delivery of the IV-TEPC.

  Use of Computer-Processed Data. We did not use computer-processed data to perform
  this audit.


Review of Internal Controls

  We reviewed internal controls that related to project management principles required by
  NPR 7120.5D and EA-WI-023; the ISS MORD requirements for measuring and
  monitoring astronaut radiation exposure; and NPR 8000.4A risk management
  requirements. We found instances where NASA’s project and risk management
  requirements and internal controls were not followed. Specifically: (1) NASA’s baseline
  cost estimate and schedule milestones for the ARI Project were not supported by reliable
  data; (2) the ISS Program expended funds developing a replacement radiation monitoring
  instrument that did not meet existing ISS medical operations requirements; (3) NASA has
  never met the requirement to monitor astronaut exposure to neutrons while aboard the
  ISS; and (4) NASA had not adequately reported the neutron risk in the ISS risk database.
  Our recommendations, if implemented, will correct the identified control weaknesses.


Prior Coverage

  During the last 5 years, NASA and the NASA OIG have issued two reports of particular
  relevance to the subject of this report. Unrestricted NASA OIG reports can be accessed
  over the Internet at http://oig.nasa.gov/audits/reports/FY11.

  NASA Office of Inspector General

  “NASA’s Management of the Mars Science Laboratory Project” (IG-11-019, June 8,
  2011)

  James Webb Space Telescope (JWST) - Independent Comprehensive Review Panel
  (ICRP)

  JWST-ICRP Final Report (October 29, 2010), accessible at
  http://www.nasa.gov/pdf/499224main_JWST-ICRP_Report-FINAL.pdf




REPORT NO. IG-11-027                                                                         19
                                                                                                          APPENDIX B




                                                      RADIATION EXPOSURE LIMITS AND
                                                                     HEALTH EFFECTS

     Terrestrial radiation guidelines are considered too restrictive for space activities. For
     space flight activities, NASA has adopted the recommendations of the National Council
     on Radiation Protection. Based on the Council’s recommendations, NASA has
     established career limits for ISS crewmembers’ exposure to space radiation. Specifically,
     the Agency limits individual risk to 3 percent Risk of Exposure-Induced Death (REID)
     from cancer. 21 The acknowledged risk for the population at large of developing and
     dying of cancer is 20 out of every 100 people. NASA requires that astronauts’ increased
     risks due to space radiation exposure will not be more than 3 percent above the estimate
     for the general population, or no more than 23 out of every 100 people. Each year, a
     NASA Radiation Specialist generates the Astronaut’s Annual Radiation Exposure Report,
     which tracks astronauts’ career exposures. Due to privacy issues, we did not review
     astronauts’ medical records. However, at our request, the NASA Radiation Health
     Officer provided non-specific summary medical data that showed 12 astronauts have
     flown to the ISS in the last 2 years. All 12 astronauts were below 3 percent REID, with
     the maximum only at about 0.52 percent REID. 22 Therefore, all crewmembers who flew
     in the last 2 years were below the career risk limit stated in the NASA standard.

     Table 2 shows NASA’s astronaut radiation exposure limits by organ and exposure
     interval. These limits are considerably higher than those for terrestrial radiation workers,
     which are 5 rem per year. 23




     21
          REID is the lifetime risk that an individual in the population will die from cancer caused by his or her
          radiation exposure.
     22
          The data does not include the 10 astronauts who flew on the final two Space Shuttle missions: STS-134
          in May 2011 and STS-135 in July 2011.
     23
          Rem (or Roentgen Equivalent Man) is a standard unit for measuring the effective radiation dose, which
          combines the amount of energy from any type of ionizing radiation that is deposited in human tissue
          along with the medical effects of the given type of radiation.



20                                                                                           REPORT NO. IG-11-027
APPENDIX B



  Table 2. Organ Specific Radiation Exposure Limits for Astronauts
       Exposure
                                      Blood Forming Organs                            Eye           Skin
       Interval
        30 Days        25 rem                                                       100 rem       150 rem
        Annual         50 rem                                                       200 rem       300 rem

         Career        150 – 400 rem [200 + 7.5(age - 30) for men]                  400 rem       600 rem
                       100 – 300 rem [200 + 7.5(age - 38) for women]
  Source: Space Radiation Analysis Group, Johnson Space Center website, accessed at
  http://srag.jsc.nasa.gov/SpaceRadiation/Why/Why.cfm, accessed April 25, 2011.


  Exposure to a dose of 25 to 100 rem will produce mild weakness and changes in blood
  count. A dose of 100 to 650 rem will cause vomiting and changes to the blood but
  prognosis is still good at the upper range. Doses of 650 to 1,000 rem will completely
  destroy bone marrow and survival may depend on intense medical intervention. A dose
  of more than 1,000 rem is almost invariably fatal. Table 3 shows radiation doses that
  astronauts receive in space and exposure one might receive from terrestrial activities.

  Table 3. Comparison of Radiation Exposure in Space and on Earth
                   Type of Exposure                                      Dose Equivalent*
  ISS (Maximum Blood Forming Organ Dose in                16 rem/year
  U.S. Segment)
  Space Shuttle (Maximum Skin Dose)                       7.9 rem/mission
  Apollo 14 (Maximum Skin Dose)                           1.4 rem/mission
  CT Scan (Chest)                                         .7 rem/event
  Barium Enema                                            .4 rem/event
  Airline Flight Crew                                     .2 rem/year

  Houston Background                                      .1 rem/year
  *
      The amount of biological damage caused by radiation varies with the amount of energy absorbed (dose).
      Radiation “dose equivalent” is a measurement that relates the amount of energy actually absorbed by
      human tissue to the effective biological damage of the radiation.
  Source: Space Radiation Analysis Group, Johnson Space Center website, http://srag-
  nt.jsc.nasa.gov/SpaceRadiation/FAQ/FAQ.cfm, accessed July 6, 2011; and NASA Public Lessons Learned
  Database Entry 1071, “ISS Program/Radiation Exposure/Effects on Crew,” February 1, 1998.




REPORT NO. IG-11-027                                                                                          21
                       APPENDIX C




     MANAGEMENT COMMENTS




22            REPORT NO. IG-11-027
APPENDIX C




REPORT NO. IG-11-027   23
              APPENDIX C




24   REPORT NO. IG-11-027
APPENDIX C




REPORT NO. IG-11-027   25
                                                                                 APPENDIX D




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Health and Medical Officer
     Associate Administrator for the Human Exploration and Operations Mission Directorate
     Assistant Associate Administrator for International Space Station
     NASA Advisory Council’s Audit, Finance, and Analysis Committee
     Director, Johnson Space Center
        Program Manager, International Space Station
        Manager, International Space Station Vehicle Office
        Director, Space Life Sciences
        Director, Engineering Directorate
            Chief, Avionic Systems Division

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics


26                                                                     REPORT NO. IG-11-027
Major Contributors to the Report:
   Rebecca Sharek, Director, Space Operations
   Kenneth Sidney, Project Manager
   Ellis Lee, Lead Auditor
   Dennis Clay, Auditor
   Connia Webb, Management Analyst




REPORT NO. IG-11-027                            27
                                                                                 SEPTEMBER 29, 2011
                                                                        REPORT No. IG-11-027




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
